(?
....,JIt.ll'''''J(J
""~"'4'''VICø
                             DEPARTMENT
                             DEPARTMENTOF
                                        OFHEALTH
                                          HEALTH&.
                                                 &. HUMAN
                                                    HUMAN SERVICES
                                                          SERVICES                                                      Office
                                                                                                                        Office of Inspector
                                                                                                                                  InspectorGeneral


                                                                                                                        Washington, D.C.
                                                                                                                        Washington,
                                                                                                                                            General


                                                                                                                                     D.C. 20201

                                                                                                                                           20201




                                                                     APR 27
                                                                     APR 27 2009
                                                                             20


                      TO:
                      TO: Charlene  Frizzera
                               Charlene Frizzera
                                        Acting Administrator
                                        Centers for Medicare & Medicaid Services
                                                             & Medicaid Services


                          Lk~
                      FROM:
                       /;:;~~
                      FROM:   ~K~                 Inspector General for Audit Services
                                /;:;~~ Inspector General for Audit Services




                      SUBJECT: Review ofof
                                 Review  Separately
                                           SeparatelyBilled
                                                      BilledLaboratory
                                                             Laboratory Tests Paid by
                                                                        Tests Paid byNational
                                                                                      NationalGovernment
                                                                                               Governent
                                        Services, Inc., for Medicare Beneficiaries With End-Stage Renal Disease
                                        (A-OI-07-00522)
                                        (A-01-07-00522)


                      Attached is an advance copy of our final
                                                           final report
                                                                 report on separately
                                                                           separately billed laboratory tests paid by
                                                                                       biled laboratory
                      National Government  Services,Inc.
                               Governent Services,    Inc.(NGS),
                                                            (NGS),forforMedicare
                                                                         Medicarebeneficiaries
                                                                                   beneficiaries with
                                                                                                 with end-stage
                                                                                                      end-stage renal
                      disease (ESRD).
                      disease          We wil
                              (ESRD). We   willissue
                                                issuethis
                                                      thisreport
                                                           reporttotoNGS
                                                                      NGS within
                                                                           within 55 business
                                                                                     business days.
                                                                                               days.

                      The Centers for    for Medicare & & Medicaid Services (CMS)(CMS) established a composite rate    rate method
                                                                                                                            method of
                      payment to reimburse hospital-based and independent dialysis facilities on a per treatment basis
                      for dialysis
                            dialysis services
                                        services provided
                                                  provided toto ESRD
                                                                ESRD beneficiaries.     CMS specifies
                                                                        beneficiaries. CMS      specifies the laboratory
                                                                                                              laboratory tests that are
                      included in the composite rate and the frequencies (e.g., per treatment, weekly, or monthly) at
                      which the  the tests
                                      tests are
                                            are reimbursable
                                                reimbursable as    part of
                                                                as part of that
                                                                           that rate.  When the tests are performed at the
                                                                                rate. When
                      specified
                      specified frequencies,
                                     frequencies, they
                                                    they must
                                                          must not
                                                                not be
                                                                    bebilled  separately. However,
                                                                        biled separately.    However, when
                                                                                                        when thethe tests
                                                                                                                    tests are performed
                      at a frequency
                             frequency greater
                                           greater than
                                                    than specified,
                                                         specified, the
                                                                     the additional
                                                                         additional tests
                                                                                      tests are
                                                                                            are separately
                                                                                                 separatelybillable
                                                                                                             bilable and payable
                                                                                                                           payable if
                      they areare medically
                                    medically justified
                                                justified by
                                                          by accompanying
                                                              accompanying documentation.
                                                                               documentation. In addition, certain routine tests
                      that are
                             are not
                                   not included
                                        included as   par of
                                                   aspart     the composite
                                                           ofthe  composite rate
                                                                              rate may be billed    separately, but payment for more
                                                                                             biled separately,
                      than     of 
 of these tests performed in a 3-month period requires medical documentation.
                      than oneone




                      Our review
                          review covered
                                 covered 339,342
                                           339,342 claims totaling $7,381,070 that NGS paid for tests provided to
                      ESRD
                      ESRD beneficiaries
                             beneficiaries by
                                           by 326
                                              326 dialysis
                                                  dialysis facilities
                                                           facilities in
                                                                      in calendar
                                                                         calendar years
                                                                                  years 2004-2006.
                                                                                        2004-2006.

                      Our
                      Our objective
                           objective was
                                       was to
                                           to determine whether Medicare claims paid by NGS
                                                                                        NGS for laboratory tests that
                      dialysis facilities provided to ESRD
                      dialysis facilities provided to ESRD  beneficiaries complied with Medicare ESRD payment
                      requirements.

                      Medicare
                      Medicare claims claims paidpaid by by NGS
                                                              NGS for  for laboratory
                                                                             laboratory tests
                                                                                         tests that
                                                                                               that dialysis
                                                                                                    dialysis facilities
                                                                                                             facilities provided to
                                                                                                                                 to ESRD
                      beneficiaries
                      beneficiaries did     did not
                                                 not always
                                                        always comply
                                                                    comply with with Medicare ESRD payment requirements.
                                                                                                                   requirements. ESRD-related
                      laboratory       tests   were     correctly      billed
                      laboratory tests were correctly biled and paid in 90 of 
 and  paid in 90  of the
                                                                                                    the 360  beneficiary  quarters that we
                                                                                                                          quarters
Page 2 – Charlene Frizzera


sampled. However, for the remaining 270 beneficiary quarters, dialysis facilities incorrectly
billed and were reimbursed $11,325 for ESRD-related laboratory tests. This amount comprised:

   •   347 beneficiary quarters containing errors totaling $10,273 for laboratory tests included
       in the composite rate that should not have been separately billed;

   •   32 beneficiary quarters containing errors totaling $827 for separately billable tests that
       were billed beyond the allowed frequency without required medical documentation; and

   •   9 beneficiary quarters containing errors totaling $225 for undocumented tests (i.e., no
       evidence that the tests were performed).

The beneficiary quarters in the individual error categories total more than 270 because some
beneficiary quarters had more than one type of error.

The dialysis facilities incorrectly billed for these tests because they did not have sufficient
controls to ensure that all claims complied with Medicare requirements. NGS overpaid these
claims because its claim-processing system had limited ability to detect billing errors. In
addition, NGS had not conducted any postpayment medical record reviews for claims submitted
by dialysis facilities that separately billed ESRD-related laboratory tests.

Based on our sample results, we estimated that NGS overpaid dialysis facilities $3.9 million for
laboratory tests provided to ESRD beneficiaries during calendar years 2004−2006.

We recommend that NGS coordinate with CMS and other involved Medicare administrative
contractors to:

   •   conduct postpayment medical record reviews of claims submitted by dialysis facilities
       that separately billed ESRD laboratory tests to identify and recover overpayments
       estimated at $3.9 million and

   •   educate dialysis facilities about Medicare ESRD billing requirements related to the types
       of errors identified in our review.

In its comments on our draft report, NGS agreed with our recommendations. However, NGS
noted that it no longer has jurisdiction over 2 of the 12 contracts covered by our review. We
have modified our recommendations accordingly.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact George M. Reeb, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov or Michael
J. Armstrong, Regional Inspector General for Audit Services, Region I, at (617) 565-2689 or
through e-mail at Michael.Armstrong@oig.hhs.gov. Please refer to report number A-01-07-00522.


Attachment
~suviQ.r.ò:
                        DEPARTMENT OF
                        DEPARTMENT OFHEALTH
                                      HEALTH&&HUMAN
                                              HUMA SERVICES
                                                    SERVICES                                                  OFFICE OF INSPECTOR GENERAL

( 4:
'--!                                                                                                          Office of Audit
                                                                                                              Offce of
                                                                                                              Region I
                                                                                                                        Audit Services
                                                                                                                              Services

                                                                                                              John F. Kennedy Federal Building
                                                                                                                      MA 02203
                                                                                                              Boston, MA   02203
                                                                                                              (617) 565-2684
                                                                                                              (617) 565-2684
                                                           APR 3300 2009

                                                           APR       2009

                     Number: A-OI-07-00522
              Report Number:

              Mr. James Elmore
              Regional Vice President
              National Governent Services
              National Government   Services
              8115 Knue Road
              Indianapolis, Indiana
              Indianapolis, Indiana 46250
                                    46250

              Dear Mr. Elmore:

              Enclosed
              Enclosed is the is  the
                               U.S.     U.S.ofDepartment of Realth
                                    Deparment                                              Services(RRS),
                                                                  Realth and 
and Ruman Services     (RRS), Office
                                                                                                             Offce ofInspector
              General (OIG),
              General       (OIG), final final report
                                                 report entitled
                                                        entitled "Review
                                                                  "Review of    of Separately
                                                                                   Separately Billed
                                                                                              Biled Laboratory Tests Paid by
              National       Governent Services,
              National Government                  Services,Inc.,
                                                             Inc.,for
                                                                    forMedicare
                                                                          MedicareBeneficiaries
                                                                                      Beneficiaries With
                                                                                                    With End-Stage
                                                                                                          End-Stage Renal
              Disease."         We will
              Disease." We wil forward  a copyforward
                                               of
      a copy of this report to    to the
                                                                                       the HHS
                                                                                           HHS action
                                                                                                action official
                                                                                                       offcial noted on the
              following page for review and any action deemed necessary.
              following

              The HHSHHS action official will make final determination as to actions taken                 taken on
                                                                                                                  on all
                                                                                                                     all matters
                                                                                                                         matters reported.
                                                                                                                                  reported.
              We    request
              We request that youthat   you
                                  respond      respond
                                          to this            to this
                                                  official within       official
                                                                  30 days           within
                                                                          from the date of                               letter. Your
                                                                                           30 days from the date of this letter.
              response should present any comments or additional information that you believe may have a
              bearing on the final determination.

                        to the
              Pursuant to  the Freedom
                                Freedom ofInformation
                                          ofInformation Act,Act, 55 U.S.C.
                                                                    U.S.C. §§ 552,
                                                                              552, OIG
                                                                                   OIG reports generally
                                                                                                 generally are made
                        to the
              available to  the public
                                public to the"  extentthat
                                          the" extent  thatinformation
                                                            information in the report is not subject to exemptions
                                                                                                         exemptions in
                  Act. Accordingly,
              the Act. Accordingly, this
                                       this report
                                            report will
                                                    will be
                                                         be posted
                                                             posted on
                                                                     on the
                                                                        the Internet
                                                                            Internet at http://oig.hhs.gov.

                     have any questions or comments about this report, please do not hesitate to call me, or
              If you have
                              Conway, Audit Manager, at (617) 565-2946 or through e-mail at
              contact Stephen Conway,
              Stephen.Conway(ßoig.hhs.gov. Please
              Stephen.Conway@oig.hhs.gov.     Please refer
                                                     refer to
                                                            to report
                                                               report number
                                                                      number A-OI-07-00522 in all
              correspondence.




                                                                ~9-~
                                                                ~9-~
                                                                        Sincerely,



                                                                        MichaelJ.J.Armstrong
                                                                        Michael     Arstrong
                                                                        Regional Inspector General
                                                                         for Audit Services


              Enclosure
Page 2 – Mr. James Elmore

Direct Reply to HHS Action Official:

Mr. Timothy Hill
Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF SEPARATELY BILLED
 LABORATORY TESTS PAID BY
   NATIONAL GOVERNMENT
     SERVICES, INC., FOR
MEDICARE BENEFICIARIES WITH
 END-STAGE RENAL DISEASE




                    Daniel R. Levinson
                     Inspector General

                        April 2009
                      A-01-07-00522
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Medicare is a health insurance program administered by the Centers for Medicare & Medicaid
Services (CMS). Medicare covers eligible beneficiaries who have end-stage renal disease
(ESRD).

CMS established a composite rate method of payment to reimburse hospital-based and
independent dialysis facilities (both referred to hereafter as dialysis facilities) on a per treatment
basis for dialysis services provided to ESRD beneficiaries. The composite rate is a
comprehensive payment for most services related to dialysis treatment. CMS specifies the
laboratory tests (including specimen collection services) that are included in the composite rate
and the frequencies (e.g., per treatment, weekly, or monthly) at which the tests are reimbursable
as part of that rate. When the tests are performed at the specified frequencies, they must not be
billed separately. However, when the tests are performed at a frequency greater than specified,
the additional tests are separately billable and payable if they are medically justified by
accompanying documentation. In addition, certain routine tests that are not included as part of
the composite rate may be billed separately, but payment for more than one of these tests
performed in a 3-month period requires medical documentation.

As of January 1, 2007, five fiscal intermediaries representing 12 Medicare contracts were
incorporated into National Government Services, Inc. (NGS). Because NGS had responsibility
for the 12 contracts when we conducted our audit, we refer to NGS as the fiscal intermediary
throughout this report.

CMS is currently transferring its Medicare operations—including claim processing,
reimbursement, provider education, and postpayment review—from fiscal intermediaries and
carriers to Part A/Part B Medicare administrative contractors (MAC). NGS will serve as the
MAC for some of the 12 contracts.

Our review covered 339,342 claims totaling $7,381,070 that NGS paid for tests provided to
ESRD beneficiaries by 326 dialysis facilities in calendar years 2004–2006.

OBJECTIVE

Our objective was to determine whether Medicare claims paid by NGS for laboratory tests that
dialysis facilities provided to ESRD beneficiaries complied with Medicare ESRD payment
requirements.

SUMMARY OF FINDINGS

Medicare claims paid by NGS for laboratory tests that dialysis facilities provided to ESRD
beneficiaries did not always comply with Medicare ESRD payment requirements. ESRD-related
laboratory tests were correctly billed and paid in 90 of the 360 beneficiary quarters that we




                                                   i
sampled. However, for the remaining 270 beneficiary quarters, dialysis facilities incorrectly
billed and were reimbursed $11,325 for ESRD-related laboratory tests. This amount comprised:

   •   347 beneficiary quarters containing errors totaling $10,273 for laboratory tests included
       in the composite rate that should not have been separately billed;

   •   32 beneficiary quarters containing errors totaling $827 for separately billable tests that
       were billed beyond the allowed frequency without required medical documentation; and

   •   9 beneficiary quarters containing errors totaling $225 for undocumented tests (i.e., no
       evidence that the tests were performed).

The beneficiary quarters in the individual error categories total more than 270 because some
beneficiary quarters had more than one type of error.

The dialysis facilities incorrectly billed for these tests because they did not have sufficient
controls to ensure that all claims complied with Medicare requirements. NGS overpaid these
claims because its claim-processing system had limited ability to detect billing errors. In
addition, NGS had not conducted any postpayment medical record reviews for claims submitted
by dialysis facilities that separately billed ESRD-related laboratory tests.

Based on our sample results, we estimated that NGS overpaid dialysis facilities $3.9 million for
laboratory tests provided to ESRD beneficiaries during calendar years 2004−2006.

RECOMMENDATIONS

We recommend that NGS coordinate with CMS and other involved MACs to:

   •   conduct postpayment medical record reviews of claims submitted by dialysis facilities
       that separately billed ESRD laboratory tests to identify and recover overpayments
       estimated at $3.9 million and

   •   educate dialysis facilities about Medicare ESRD billing requirements related to the types
       of errors identified in our review.

NATIONAL GOVERNMENT SERVICES, INC., COMMENTS

In its comments on our draft report, NGS agreed with our recommendations. However, NGS
noted that it no longer has jurisdiction over two of the contracts covered by our review. NGS’s
comments are included in their entirety as Appendix E.

OFFICE OF INSPECTOR GENERAL RESPONSE

We acknowledge that NGS no longer has jurisdiction over two of the contracts covered by our
review, and we have modified our recommendations accordingly. We will provide copies of this
report to the additional MACs now responsible for some of the claims that we reviewed. We


                                                ii
will also provide NGS, CMS, and the other involved MACs with relevant claim data from our
review.




                                             iii
                                                    TABLE OF CONTENTS

                                                                                                                           Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Statutory and Regulatory Framework..........................................................1
              Composite Rate Payments ...........................................................................1
              National Government Services ...................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope............................................................................................................2
               Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................3

          TESTS INCLUDED IN THE COMPOSITE RATE ...............................................4
               Federal Requirements ..................................................................................4
               Separately Billed Tests That Were Already Reimbursed Through the
                 Composite Rate.........................................................................................6
               Separately Billed Tests That Were Performed Beyond the
                 Specified Frequency But Lacked Accompanying Documentation...........6
               Separately Billed Tests That Did Not Meet the 50-Percent Rule ................6

          SEPARATELY BILLABLE TESTS NOT INCLUDED IN THE
           COMPOSITE RATE ............................................................................................7
               Federal Requirements ..................................................................................7
               Serum Ferritin Tests Billed Beyond the Allowed Frequency Without
                Accompanying Documentation ................................................................8

          UNDOCUMENTED TESTS ...................................................................................8
              Federal Requirements ..................................................................................8
              Tests Billed Separately Without Any Documentation.................................8

          INSUFFICIENT CONTROLS.................................................................................8

          ESTIMATE OF UNALLOWABLE PAYMENTS .................................................9

          RECOMMENDATIONS.........................................................................................9

          NATIONAL GOVERNMENT SERVICES, INC., COMMENTS .........................9

          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................9




                                                                    iv
APPENDIXES

    A – LABORATORY TESTS SUBJECT TO END-STAGE RENAL DISEASE
         PAYMENT REQUIREMENTS AND EXTRACTED FOR REVIEW

    B – SAMPLE DESIGN AND METHODOLOGY

    C – SAMPLE RESULTS AND ESTIMATES

    D – SAMPLE UNITS BY TYPES OF ERRORS

    E – NATIONAL GOVERNMENT SERVICES, INC., COMMENTS




                                 v
                                                  INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act), as amended, established Medicare, a health
insurance program administered by the Centers for Medicare & Medicaid Services (CMS).
Medicare covers eligible beneficiaries who have end-stage renal disease (ESRD).

Statutory and Regulatory Framework

Pursuant to section 1862(a)(1)(A) of the Act, no payment may be made under Medicare Part A
or Part B for any expenses incurred for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury, or to improve the functioning of a malformed
body member.” In addition, section 1833(e) of the Act precludes payments to any service
provider under Medicare Part B unless the provider has furnished information necessary to
determine the amounts due such provider.

Pursuant to 42 CFR § 410.32(a), “[a]ll . . . diagnostic laboratory tests . . . must be ordered by the
physician who is treating the beneficiary . . . [and tests] not ordered by the physician who is
treating the beneficiary are not reasonable and necessary . . . .” Further, 42 CFR § 410.32(d)(2)
and (3) set forth requirements for maintaining and providing to CMS certain documentation
regarding such tests.

Composite Rate Payments

CMS established a composite rate method of payment to reimburse hospital-based and
independent dialysis facilities (both referred to hereafter as dialysis facilities) on a per treatment
basis for dialysis services provided to ESRD beneficiaries. The composite rate is a
comprehensive payment for all services related to dialysis treatment, except for physicians’
professional services and certain drug and laboratory services that are separately billable.

CMS specifies the laboratory tests 1 that are included in a dialysis facility’s composite rate and
the frequencies (e.g., per treatment, weekly, or monthly) at which the tests are reimbursable as
part of that rate. (See Appendix A for the composite rate tests extracted for this review.) When
the tests are performed at the specified frequencies, they must not be billed separately. However,
when the tests are performed at a frequency greater than specified, the additional tests are
separately billable and payable if they are medically justified by accompanying documentation.

Composite rate tests include both automated multichannel chemistry (AMCC) profile tests and
non-AMCC tests. CMS guidance on AMCC tests uses the 50-percent rule, which specifies
whether CMS will pay for these tests separately. In addition, certain routinely provided non-
AMCC tests (e.g., serum ferritin and serum aluminum) that are not included as part of the
composite rate may be billed separately, but payment for more than one of these tests performed
in a 3-month period requires medical documentation.


1
    The term “tests” in this report includes specimen collection services.


                                                              1
National Government Services

As of January 1, 2007, five fiscal intermediaries representing 12 Medicare contracts were
incorporated into National Government Services, Inc. (NGS). Because NGS had responsibility
for the 12 contracts when we conducted our audit, we refer to NGS as the fiscal intermediary
throughout this report.

CMS is currently transferring its Medicare operations—including claim processing,
reimbursement, provider education, and postpayment review—from fiscal intermediaries and
carriers to Part A/Part B Medicare administrative contractors (MAC). NGS will serve as the
MAC for some of the 12 contracts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare claims paid by NGS for laboratory tests that
dialysis facilities provided to ESRD beneficiaries complied with Medicare ESRD payment
requirements.

Scope

We limited our review to claims paid by NGS for separately billed laboratory tests that were
subject to Medicare ESRD payment requirements. Our review covered 339,342 claims totaling
$7,381,070 that NGS paid for tests provided by 326 dialysis facilities in calendar years
(CY) 2004–2006. The tests included in our review are listed in Appendix A.

In performing our review, we established reasonable assurance that the claim data were
verifiable and accurate. We did not assess the completeness of the National Claims History file
from which we obtained the data. We limited our review of internal controls to obtaining an
understanding of NGS’s payment controls for separately billed laboratory tests provided to
ESRD beneficiaries.

We performed our audit from October 2007 through May 2008. Our audit work included
contacting NGS staff in Indianapolis, Indiana, and Quincy, Massachusetts, and the 125 dialysis
facilities in our sample.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Medicare laws, regulations, and guidance;

   •    gained an understanding of NGS’s claim-processing system and edits in place by
        developing test claims for NGS to process and discussing the results with NGS;




                                               2
    •    used data from CMS’s National Claims History file to match ESRD composite rate paid
         claims with the dialysis facilities’ ESRD outpatient laboratory claims based on “from”
         and “through” dates of service;

    •    identified from our computer match 122,176 beneficiary quarters2 containing separately
         billed ESRD-related laboratory tests totaling $7,381,070 (Appendix B) and selected a
         stratified random sample of 360 beneficiary quarters with payments totaling $21,472
         (Appendix C);

    •    reviewed information in the dialysis facilities’ records (including dialysis treatment dates,
         physician orders, laboratory tests performed, and progress notes) to support the tests
         billed for each sampled item but did not obtain records from physicians; 3

    •    reviewed billing records, claims, and remittance advices from the 125 dialysis facilities in
         the sample;

    •    evaluated the 360 sampled beneficiary quarters to determine whether the paid ESRD-
         related laboratory services were allowable and medically justified;

    •    reviewed policies and procedures for billing ESRD claims for separately billable
         laboratory tests from the 95 dialysis facilities that responded to our request for this
         information;

    •    estimated the potential overpayments (Appendix C); and

    •    discussed the results of our review with NGS and CMS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATIONS

Medicare claims paid by NGS for laboratory tests that dialysis facilities provided to ESRD
beneficiaries did not always comply with Medicare ESRD payment requirements. ESRD-related
laboratory tests were correctly billed and paid in 90 of the 360 beneficiary quarters that we
sampled. However, for the remaining 270 beneficiary quarters, dialysis facilities incorrectly
billed and were reimbursed $11,325 for ESRD-related laboratory tests (Appendix D). This
amount comprised:

2
 A beneficiary quarter comprises all separately billed and reimbursed services listed in Appendix A that were
performed for an ESRD beneficiary during a calendar quarter.
3
 Federal regulations (42 CFR § 410.32(d)(3)(ii)) state that, in certain circumstances, CMS will request relevant
portions of beneficiaries’ medical records from ordering physicians.


                                                          3
   •   347 beneficiary quarters containing errors totaling $10,273 for laboratory tests included
       in the composite rate that should not have been separately billed;

   •   32 beneficiary quarters containing errors totaling $827 for separately billable tests that
       were billed beyond the allowed frequency without required medical documentation; and

   •   9 beneficiary quarters containing errors totaling $225 for undocumented tests (i.e., no
       evidence that the tests were performed).

The beneficiary quarters in the individual error categories total more than 270 because some
beneficiary quarters had more than one type of error.

The dialysis facilities incorrectly billed for these tests because they did not have sufficient
controls to ensure that all claims complied with Medicare requirements. NGS overpaid these
claims because its claim-processing system had limited ability to detect billing errors. In
addition, NGS had not conducted any postpayment medical record reviews for claims submitted
by dialysis facilities that separately billed ESRD-related laboratory tests.

Based on our sample results, we estimated that NGS overpaid dialysis facilities $3.9 million for
laboratory tests provided to ESRD beneficiaries during CYs 2004−2006.

TESTS INCLUDED IN THE COMPOSITE RATE

The 125 dialysis facilities in our sample had errors in 347 beneficiary quarters that resulted in
overpayments totaling $10,273 for laboratory tests included in the composite rate that should not
have been separately billed. This amount consisted of $7,746 for tests that were performed
within the specified frequency, $1,908 for tests that were performed beyond the specified
frequency but lacked required documentation, and $619 for tests that did not meet Medicare’s
50-percent rule.

Federal Requirements

The CMS “Medicare Benefits Policy Manual,” Pub. No. 100-02 (the Manual), chapter
11, section 30.2, states: “The costs of certain ESRD laboratory services performed by
either the facility’s staff, or an independent laboratory, are included in the composite rate
calculations . . . . Therefore, payment for all of the tests is included in the facility’s
composite rate, and the tests may not be billed separately to the Medicare program.”

The Manual, chapter 11, section 30.2.1.A, designates the laboratory tests that are included in the
composite rate and the frequencies at which these tests are included (e.g., per treatment, weekly,
or monthly) for beneficiaries receiving hemodialysis, intermittent peritoneal dialysis, continuous
cycling peritoneal dialysis, and hemofiltration. Furthermore, it states:

       The tests listed [in this section 30.2.1.A] are usually performed for dialysis
       patients and are routinely covered at the frequency specified in the absence of
       indications to the contrary, i.e., no documentation of medical necessity is required


                                                  4
       other than knowledge of the patient’s status as an ESRD beneficiary. When any
       of these tests is performed at a frequency greater than that specified, the additional
       tests are separately billable and are covered only if they are medically justified by
       accompanying documentation. A diagnosis of ESRD alone is not sufficient
       medical evidence to warrant coverage of the additional tests. The nature of the
       illness or injury (diagnosis, complaint, or symptom) requiring the performance of
       the test(s) must be present on the claim. Such information must be furnished
       using the ICD-9-CM coding system.

The Manual, chapter 11, section 70.2.A.1, designates the laboratory tests that are included in the
monthly composite rate for beneficiaries receiving continuous ambulatory peritoneal dialysis.

The Manual, chapter 11, section 30.A, states: “Items and services included under the composite
rate must be furnished by the facility, either directly or under arrangements to all of its dialysis
patients. Examples of such items and services are: . . . [s]taff time used to collect specimens for
all laboratory tests.” In addition, the “Medicare Claims Processing Manual,” Pub. No. 100-04,
chapter 16, section 60.1.3, provides that:

       Special rules apply when [specimen collection] services are furnished to dialysis
       patients. The specimen collection fee is not separately payable for . . . patients
       dialyzed in the facility or for patients dialyzed at home under [R]eimbursement
       Method I. Payment for [specimen collection] service[s] is included under the
       ESRD composite rate, regardless of whether the laboratory test itself is included
       in the composite rate or is separately billable.

The CMS “Medicare Claims Processing Manual,” Pub. No. 100-04, chapter 16, section 40.6.1,
states that, for a particular date of service, the dialysis facility must identify “the AMCC tests
ordered that are included in the composite rate and those that are not included.” Specifically,
when ordering an AMCC test, the dialysis facility must specify whether the test (1) “[i]s part of
the composite rate and not separately payable;” (2) “[i]s a composite rate test but is, on the date
of the order, beyond the frequency covered under the composite rate and thus is separately
payable;” or (3) “[i]s not part of the ESRD composite rate and thus is separately payable.”
Pursuant to the same section of the “Medicare Claims Processing Manual,” Medicare uses this
information to apply the following rules, among others, to AMCC tests for ESRD beneficiaries:

   •   “If 50 percent or more of the covered tests [on a given date of service] are included [in]
       the composite rate payment, then all submitted tests [for that date] are included in the
       composite [rate] payment. In this case, no separate payment in addition to the composite
       rate [payment] is made for any of the separately billable tests.”

   •   “If less than 50 percent of the covered tests [on a given date of service] are composite
       rate tests, all AMCC tests submitted for that [date of service] for that beneficiary are
       separately payable.”




                                                 5
Separately Billed Tests That Were Already Reimbursed
Through the Composite Rate

The dialysis facilities in our sample incorrectly billed and were reimbursed $7,746 for tests that
were reimbursed through the composite rate. Specifically, the facilities were reimbursed for
non-AMCC tests (e.g., complete blood counts, hematocrit, hemoglobin, and prothrombin time)
that were performed within the specified frequency and for specimen collection services included
in the composite rate.



                      Example: Tests Included in the Composite Rate

         Beneficiary A had blood drawn (specimen collection) for a hemoglobin test
         with each dialysis treatment. Specimen collection services and one hemoglobin
         test are included in the composite rate for each treatment. However, the dialysis
         facility separately billed NGS for both the specimen collection services and the
         test each time the test was performed.


Separately Billed Tests That Were Performed Beyond the Specified Frequency
But Lacked Accompanying Documentation

The dialysis facilities in our sample incorrectly billed and were reimbursed $1,908 for both
AMCC and non-AMCC composite rate tests that were performed beyond the specified frequency
without accompanying documentation that medically justified the additional tests.


                     Example: Separately Billable Composite Rate Tests
                       Billed Without Accompanying Documentation

       Beneficiary B had a potassium test four times during April in conjunction with
       his dialysis treatments. One potassium test is included in the composite rate
       each month. The dialysis facility separately billed NGS for three potassium tests
       performed in April after the first test. However, the dialysis facility’s records
       did not contain accompanying documentation that medically justified the three
       additional tests.



Separately Billed Tests That Did Not Meet the 50-Percent Rule

The dialysis facilities in our sample incorrectly billed and were reimbursed $619 for AMCC tests
when 50 percent or more of the tests performed on the date of service were included in the
composite rate. The claims that dialysis facilities submitted for these tests were either
incorrectly coded or incomplete. Because NGS thus applied the 50-percent rule to incorrectly
coded or incomplete data, the facilities received overpayments.


                                                6
               Examples: Payment Determinations Using the 50-Percent Rule

         Incorrect Coding: Beneficiary C had a calcium test and phosphorus test (both
         AMCC composite rate tests) on a single date of service. According to the
         dialysis facility’s records, this date of service was the only time during the month
         that these two tests were performed. Therefore, these tests were composite rate
         tests within the specified frequency. However, the dialysis facility incorrectly
         coded the claim to indicate that the tests were composite rate tests beyond the
         specified frequency. NGS applied the 50-percent rule to this information
         (0 divided by 2) and thus separately paid for both tests. Because 100 percent of
         the tests actually performed were composite rate tests (2 divided by 2), these two
         tests were not separately payable.

         Incomplete Billing: Beneficiary D had 10 AMCC tests on a single date of
         service. According to the dialysis facility’s records, six of these tests were
         composite rate tests within the specified frequency, and four were not composite
         rate tests. However, the dialysis facility billed only for the four non-composite-
         rate tests and did not include the six composite rate tests on its claim. Because
         of this omission, NGS calculated that 100 percent (4 divided by 4) of the tests
         were not composite rate tests and separately paid the claim based on the
         50-percent rule. Because 60 percent of the tests were actually composite rate
         tests (6 divided by 10), these 10 tests were not separately payable.


SEPARATELY BILLABLE TESTS NOT INCLUDED
IN THE COMPOSITE RATE

Federal Requirements

The Manual, chapter 11, section 30.2.1.B, identifies:

       [C]ertain separately billable laboratory tests [i.e., serum aluminum and serum
       ferritin] that are covered routinely, i.e., without documentation of medical necessity
       other than knowledge of the patient’s status as an ESRD beneficiary, when
       furnished at the specified frequencies. If they are performed at a frequency greater
       than [once every 3 months], they are covered only if accompanied by medical
       documentation. A diagnosis of ESRD alone is not sufficient documentation. The
       medical necessity of the test(s), the nature of the illness or injury (diagnosis,
       complaint or symptom) requiring the performance of the test(s) must be present on
       the claim. Such information must be furnished using the ICD-9-CM coding system.




                                                 7
Serum Ferritin Tests Billed Beyond the Allowed Frequency
Without Accompanying Documentation

The dialysis facilities in our sample incorrectly billed and were reimbursed $827 for errors in
32 beneficiary quarters for serum ferritin tests that were performed beyond the allowable
frequency of once every 3 months. In each of these quarters, the dialysis facilities’ records did
not have the accompanying medical documentation for the additional tests.



                  Example: Additional Serum Ferritin Tests Billed Without
                             Accompanying Documentation

      Beneficiary E had three serum ferritin tests during a 3-month period in 2006 in
      conjunction with his dialysis treatments. Serum ferritin tests are not included as
      part of the composite rate and may be billed separately, but payment for more
      than one test performed during a 3-month period requires medical documentation.
      The dialysis facility separately billed NGS for three ferritin tests. However, the
      dialysis facility’s records did not contain the accompanying medical
      documentation for the two additional tests.


UNDOCUMENTED TESTS

Federal Requirements

Section 1833(e) of the Act precludes payments to any service provider under Medicare Part B
unless the provider has furnished information necessary to determine the amounts due such
provider. Further, 42 CFR § 410.32(d)(3)(i) requires entities that submit claims for diagnostic
laboratory tests to provide certain information to CMS upon request.

Tests Billed Separately Without Any Documentation

In nine beneficiary quarters, the dialysis facilities in our sample separately billed $225 for
laboratory tests without providing any documentation that the tests were actually performed.
Specifically, the dialysis facilities either did not respond to our multiple requests for
documentation or, in one case, billed for a test that was not performed. In this instance, staff at
the dialysis facility told us that they had performed a glucose stick test but incorrectly billed
Medicare for an intravenous glucose test.

INSUFFICIENT CONTROLS

The dialysis facilities incorrectly billed for the tests discussed in this report because they
generally did not have sufficient controls (e.g., correct billing policies and procedures) to ensure
that all submitted claims complied with Medicare requirements. Specifically, dialysis facilities
that responded to our billing questions cited the following reasons for the incorrect billing:



                                                  8
   •   They were unaware of CMS’s billing guidelines.

   •   Their billing systems were inadequate.

   •   They did not track the number of times that they billed serum ferritin tests to Medicare.

NGS overpaid these claims because its claim-processing system relied on dialysis facilities to
bill correctly. The system had limited ability to detect billing errors and prevent overpayments.
In addition, NGS did not conduct any postpayment medical record reviews for claims submitted
by dialysis facilities that separately billed ESRD laboratory tests.

ESTIMATE OF UNALLOWABLE PAYMENTS

Based on our sample results, we estimated that dialysis facilities incorrectly billed and were
reimbursed $3.9 million for ESRD-related laboratory tests that did not meet Medicare
requirements (Appendix C).

RECOMMENDATIONS

We recommend that NGS coordinate with CMS and other involved MACs to:

   •   conduct postpayment medical record reviews of claims submitted by dialysis facilities
       that separately billed ESRD laboratory tests to identify and recover overpayments
       estimated at $3.9 million and

   •   educate dialysis facilities about Medicare ESRD billing requirements related to the types
       of errors identified in our review.

NATIONAL GOVERNMENT SERVICES, INC., COMMENTS

In its comments on our draft report, NGS agreed with our recommendations. However, NGS
noted that it no longer has jurisdiction over two of the contracts covered by our review. NGS’s
comments are included in their entirety as Appendix E.

OFFICE OF INSPECTOR GENERAL RESPONSE

We acknowledge that NGS no longer has jurisdiction over two of the contracts covered by our
review, and we have modified our recommendations accordingly. We will provide copies of this
report to the additional MACs now responsible for some of the claims that we reviewed. We
will also provide NGS, CMS, and the other involved MACs with relevant claim data from our
review.




                                                 9
APPENDIXES
                                                                                                   APPENDIX A
                                                                                                     Page 1 of 3


              LABORATORY TESTS 1 SUBJECT TO END-STAGE RENAL DISEASE
                PAYMENT REQUIREMENTS 2 AND EXTRACTED FOR REVIEW

Hemodialysis, Intermittent Peritoneal Dialysis, Continuous Cycling Peritoneal Dialysis,
and Hemofiltration

CPT Code 3            Non-AMCC 4 Tests Included in the Composite Rate

Per Treatment

85013                Spun microhematocrit
85014                Hematocrit (Hct)
85018                Hemoglobin (Hgb)

Weekly

85610                Prothrombin time

Monthly

85007                Blood smear, microscopic examination with manual differential white blood
                      count (WBC)
85025                Complete blood count (CBC), automated (Hgb, Hct, red blood count [RBC]
                      WBC, and platelet count) and automated differential WBC count
85027                CBC, automated (Hgb, Hct, RBC, WBC, and platelet count)

CPT Code             AMCC Tests Included in the Composite Rate

Weekly

82565                Creatinine; blood

Thirteen per Quarter

84520                Urea nitrogen; quantitative




1
    The term “tests” in this report includes specimen collection services.
2
    Source: “Medicare Benefits Policy Manual,” Pub. No. 100-02, chapter 11, sections 30.2.1, 30.2.2, and 70.2(A).
3
 The Current Procedural Terminology (CPT) code set is maintained by the American Medical Association to
communicate uniform information about medical services and procedures.
4
    AMCC = automated multichannel chemistry.
                                                                           APPENDIX A
                                                                             Page 2 of 3

Monthly

82040        Albumin; serum
82310        Calcium; total
82374        Carbon dioxide (bicarbonate)
82435        Chloride; blood
83615        Lactate dehydrogenase
84075        Phosphatase, alkaline
84100        Phosphorus inorganic (phosphate)
84132        Potassium; serum
84155        Protein, total, except by refractometry; serum
84450        Transferase; aspartate amino

CPT Code     Non-Composite-Rate AMCC Tests Used To Calculate the
             50-Percent Rule

82247        Bilirubin; total
82248        Bilirubin; direct
82465        Cholesterol, serum or whole blood, total
82550        Creatine kinase; total
82947        Glucose; quantitative, blood (except reagent strip)
82977        Glutamyltransferase, gamma
84295        Sodium; serum
84460        Transferase; alanine amino
84478        Triglycerides
84550        Uric acid; blood

CPT Code     Separately Billable Tests Not Included in the Composite
             Rate – Limited in Frequency

One Every 3 Months

82108        Serum aluminum
82728        Serum ferritin

CPT Code     Specimen Collection Services Included in the Composite Rate

36415        Collection of venous blood by venipuncture
G0001        Routine venipuncture for collection of specimen(s)

Continuous Ambulatory Peritoneal Dialysis

CPT Code     Non-AMCC Tests Included in the Composite Rate

Monthly

85014        Hematocrit (Hct)
85018        Hemoglobin (Hgb)
                                                                          APPENDIX A
                                                                            Page 3 of 3

CPT Code    AMCC Tests Included in the Composite Rate

Monthly

82040       Albumin; serum
84075       Alkaline phosphatase
84450       Transferase; aspartate amino
82310       Calcium; total
82374       Carbon dioxide (bicarbonate)
82565       Creatinine; blood
83615       Lactate dehydrogenase
83735       Magnesium
84100       Phosphorus inorganic (phosphate)
84132       Potassium; serum
84155       Protein, total, except by refractometry; serum
84295       Sodium; serum
84520       Urea nitrogen; quantitative

CPT Code    Non-Composite-Rate AMCC Tests Used To Calculate the
            50-Percent Rule

84460       Transferase; alanine amino
82247       Bilirubin, total
82248       Bilirubin, direct
82435       Chloride; blood
82465       Cholesterol, serum or whole blood, total
82550       Creatine kinase; total
82977       Glutamyltransferase, gamma
82947       Glucose; quantitative, blood (except reagent strip)
84478       Triglycerides
84550       Uric acid; blood

CPT Code    Separately Billable Tests Not Included in the Composite
            Rate – Limited in Frequency

One Every 3 Months

85048       Leukocyte WBC, automated
85041       RBC, automated
85049       Platelet count, automated

CPT Code    Specimen Collection Services Included in the Composite Rate

36415       Collection of venous blood by venipuncture
G0001       Routine venipuncture
                                                                                    APPENDIX B
                                                                                      Page 1 of 2


                         SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of 122,176 beneficiary quarters containing Medicare laboratory tests
that were provided by dialysis facilities to beneficiaries with end-stage renal disease (ESRD) and
paid by National Government Service (NGS) during calendar years (CY) 2004–2006. Our
population included only the laboratory tests listed in Appendix A. The population of 122,176
beneficiary quarters was distributed throughout NGS’s 12 contracts as follows:

       NGS                                                                       Value of
                                                                Beneficiary
      Contract                  NGS Contract                                    Laboratory
                                                                 Quarters
      Number                                                                       Tests
       00130      AdminaStar – Indiana                                6,942         $469,246
       00131      AdminaStar – Illinois                               9,715          529,871
       00160      AdminaStar – Kentucky                               1,322           93,692
       00180      Associated Hospitals – Maine                        2,209           90,474
       00181      Associated Hospitals – Massachusetts                1,038           56,470
       00270      Anthem Health Plans – New Hampshire                 4,077          193,564
       00308      Empire Medicare Services – New York                44,414        2,692,221
       00332      AdminaStar – Ohio                                  10,565          660,288
       00450      United Government Services – Wisconsin             13,790          546,115
       00452      United Government Services – Michigan               7,811          532,968
       00453      United Government Services – Virginia               3,292          203,729
       00454      United Government Services – California            17,001        1,312,432
        Total                                                       122,176       $7,381,070

SAMPLING FRAME

The sampling frame was 12 database tables, one for each of NGS’s contract numbers, containing
all ESRD-related laboratory tests provided during CYs 2004–2006, grouped by CY, quarter, and
beneficiary.

SAMPLE UNIT

The sample unit was a beneficiary quarter.

SAMPLE DESIGN

We used a stratified random sample made up of 12 strata, one for each of the 12 NGS contracts.

SAMPLE SIZE

The sample size was 30 sample units for each of the 12 strata, for a total of 360 units.
                                                                                   APPENDIX B
                                                                                     Page 2 of 2

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers using the Office of Inspector General, Office of Audit
Services, statistical software.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the beneficiary quarters in each stratum in the frame from 1 through
the total number of beneficiary quarters in the stratum. After generating 30 random numbers for
each of the 12 strata, we selected the corresponding sample items.

ESTIMATION METHODOLOGY

We used the Office of Inspector General, Office of Audit Services, statistical software to
estimate the potential overpayments.
                                                                    APPENDIX C


                SAMPLE RESULTS AND ESTIMATES

                             Sample Results

                                                 Number of
                                                 Beneficiary
 NGS                                                          Value of
               Frame     Sample     Value of      Quarters
Contract                                                     Unallowable
                Size      Size      Sample          With
Number                                                        Payments
                                                 Unallowable
                                                  Payments
 00130           6,942     30        $1,956          29        $1,318
 00131           9,715     30         1,673          24         1,118
 00160           1,322     30         2,076          25           484
 00180           2,209     30         1,878          20         1,172
 00181           1,038     30         1,281          26           855
 00270           4,077     30         1,737          13           508
 00308          44,414     30         1,608          19           842
 00332          10,565     30         1,632          21           636
 00450          13,790     30         1,191          14           326
 00452           7,811     30         1,761          29         1,097
 00453           3,292     30         1,754          25         1,222
 00454          17,001     30         2,925          25         1,747
 Total         122,176     360      $21,472          270      $11,325


                  Estimates of Unallowable Payments
         (Limits Calculated for a 90-Percent Confidence Interval)

                  Point estimate        $3,903,956
                  Lower limit            3,387,335
                  Upper limit            4,420,578
                                                                                           APPENDIX D
                                                                                             Page 1 of 2

                            SAMPLE UNITS BY TYPES OF ERRORS

                                                                           Unallowable
                             Type of Error                   Units          Payments
                      Tests in composite rate                  347             $10,273
                      Separately billable errors                32                 827
                      Undocumented tests                         9                 225
                        Total                                 388 1            $11,325



                                                 Tests in Composite Rate

 NGS
               Tests Within               Tests Beyond
Contract                                                          50% Rule Errors                    Total
                Frequency                  Frequency
Number
                     Unallowable               Unallowable                 Unallowable                Unallowable
                                                                                           Units 2
            Units     Payments         Units    Payments          Units     Payments                   Payments
 00130         29       $1,074            11        $132               4       $65            44         $1,270
 00131         20          717             4          86               2        16            26            820
 00160          8          154            16         162              15       108            39            425
 00180         11          499             7         569               7        66            25          1,134
 00181         20          667             3          30               6       136            29            832
 00270         10          397             6          92               0         0            16            489
 00308         12          486             9         224               2         9            23            719
 00332         11          460             8         111               3        14            22            585
 00450          9          161             6         129               1        22            16            312
 00452         25          898             4          41               3        26            32            964
 00453         25        1,066             1           6               7        36            33          1,108
 00454         18        1,167            14         326              10       121            42          1,614

 Total       198       $7,746             89      $1,908            60        $619          347       $10,273




   1
    This total exceeds 270 beneficiary quarters because some beneficiary quarters had more than one type of
   error.
   2
    The total units in each NGS contract could exceed 30 beneficiary quarters because some beneficiary
   quarters had more than one type of error.
                                   APPENDIX D
                                     Page 2 of 2


 NGS
            Separately Billable
Contract
                 Errors
Number
                    Unallowable
           Units     Payments
 00130       3        $47
 00131       5        153
 00160       3         57
 00180       2         38
 00181       1         19
 00270       1         19
 00308       3         76
 00332       2         38
 00450       0           0
 00452       4        133
 00453       4        114
 00454       4        133
 Total      32       $827


 NGS
              Undocumented
Contract
                  Tests
Number
                     Unallowable
            Units     Payments
 00130       0           $0
 00131       2          146
 00160       1            2
 00180       0            0
 00181       1            3
 00270       0            0
 00308       2           47
 00332       1           13
 00450       2           14
 00452       0            0
 00453       0            0
 00454       0            0
 Total        9        $225
APPENDIX E
  Page 1 of 2
APPENDIX E
  Page 2 of 2
